     Management Advisory Report




Single Audit of the Commonwealth
of Pennsylvania for the Fiscal Year
       Ended June 30, 2011




       A-77-13-00011 | May 2013
Single Audit of the Commonwealth of Pennsylvania for the
Fiscal Year Ended June 30, 2011
A-77-13-00011
May 2013                                                                 Office of Audit Report Summary

Objective                                 Finding

To report internal control weaknesses,    The single audit reported L&I carried forward approximately
noncompliance issues, and                 $1.8 million from prior SSA reimbursements. L&I should have
unallowable costs identified in the       expended these funds before it requested additional SSA funds.
single audit to the Social Security       However, since L&I drew additional funds before it expended the
Administration (SSA) for resolution       $1.8 million, the Commonwealth of Pennsylvania owes interest on
action.                                   these funds in the amount of $2,119.

Background                                Recommendation

The Pennsylvania Auditor General and      The single audit identified multiple Federal programs, including
KPMG, LLP conducted the single            SSA, responsible for resolving this finding. However, the
audit of the Commonwealth of              Department of Health and Human Services plans to resolve this
Pennsylvania. SSA is responsible for      finding on the Government’s behalf. Therefore, we are bringing
resolving single audit findings related   this matter to your attention, but we are not making a
to its Disability Insurance program.      recommendation.
The Department of Labor and Industry
(L&I) is the Pennsylvania Bureau of
Disability Determination’s parent
agency.
MEMORANDUM
Date:   May 24, 2013                                                         Refer To:

To:     Gary S. Hatcher
        Senior Advisor
        Records Management and Audit Liaison Staff
From:   Inspector General
Subject: Single Audit of the Commonwealth of Pennsylvania for the Fiscal Year Ended June 30, 2011
        (A-77-13-00011)

        This report presents the Social Security Administration’s (SSA) portion of the single audit of the
        Commonwealth of Pennsylvania for the Fiscal Year ended June 30, 2011. 1 Our objective was to
        report internal control weaknesses, noncompliance issues, and unallowable costs identified in the
        single audit to SSA for resolution action.

        The Pennsylvania Auditor General and KPMG, LLP conducted the audit. The results of the desk
        review conducted by the Department of Health and Human Services (HHS) concluded that the
        audit met Federal requirements. In reporting the results of the single audit, we relied entirely on
        the internal control and compliance work performed by the Pennsylvania Auditor General and
        KPMG, LLP and the reviews performed by HHS. We conducted our review in accordance with
        the Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
        Inspection and Evaluation.

        For single audit purposes, the Office of Management and Budget assigns Federal programs a
        Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
        Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
        responsible for resolving single audit findings reported under this CFDA number.

        The Pennsylvania Bureau Disability Determination (BDD) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The BDD is
        reimbursed for 100 percent of allowable costs. The Department of Labor and Industry (L&I) is
        the Pennsylvania BDD’s parent agency.




        1
         Single Audit Report For the Fiscal Year Ended June 30, 2011,
        http://www.portal.state.pa.us/portal/server.pt?open=512&objID=4574&&PageID=473561&mode=2 (last viewed
        May 1, 2013).
Page 2 - Gary S. Hatcher

The Office of Vocational Rehabilitation (OVR), within L&I, provides vocational rehabilitation
services to Social Security beneficiaries. SSA reimburses OVR for direct costs of items
purchased for these individuals and indirect costs related to administrative, placement, and
counseling services as well as tracking and monitoring work activity.

The single audit reported L&I carried forward approximately $1.8 million from prior SSA
reimbursements. L&I should have expended these funds before it requested additional SSA
funds. However, since L&I drew additional funds before expending the $1.8 million , the
Commonwealth of Pennsylvania owes interest, totaling $2,119, on these funds. 2

The single audit identified multiple Federal programs, including SSA, responsible for resolving
this finding. However, HHS plans to resolve this finding on the Government’s behalf.
Therefore, we are bringing this matter to your attention, but we are not making a
recommendation.

The single audit also disclosed the following findings that may impact BDD operations although
they were not specifically identified to SSA. I am bringing these matters to your attention as
they represent potentially serious service delivery and financial control problems for the Agency.
Specifically, the Commonwealth of Pennsylvania did not have adequate

•      general computer controls 3 and

•      controls related to debarment and suspension. 4

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                  Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. finding 11-OB-03.
3
    Id. finding 11-08.
4
    Id. finding 11-L&I-06.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
